IN THE
Supreme Court Of The Anited States

 

CRAIG EDWARD HUNNICUTT, JR.
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

 

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

Petitioner has previously been granted leave to proceed in forma pauperis
with the benefit of court-appointed counsel in the Western District of Michigan and
the Sixth Circuit Court of Appeals. Counsel was appointed pursuant to the
Criminal Justice Act, 18 U.S.C. § 3006A et seq. The order appointing Attorney
Rapa in the Western District of Michigan is attached in lieu of a declaration or

financial affidavit.

Ly L—

Ann#R. Rapa
Counsel of Record for Petitioner

Dated: August 25, 2020

 
Case 1:06-cr-00194-GJQ ECF No. 93 filed 05/10/19 PagelD.360 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN

SOUTHERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v. Case No. 1:06:CR:194-01
CRAIG HUNNICUTT, HON. GORDON J. QUIST
Defendant.

/

ORDER APPOINTING COUNSEL AND SETTING BRIEFING SCHEDULE

This matter is before the Court on Defendant’s pro se Motions for modification or reduction
of sentence under the First Step Act of 2018 (FSA) (ECF Nos. 85, 88), as well as Defendant’s
Motion to appoint counsel. (ECF No. 89.) The Government has filed a response and Defendant has
filed a reply. Defendant may, or may not, be eligible for a reduced sentence under the FSA. The
Court determines that Defendant should have counsel appointed to address the impact, if any, of the
FSA on Defendant’s sentence.

Therefore,

IT IS HEREBY ORDERED that Defendant’s motion to appoint counsel (ECF No. 89) is
granted, and the Federal Public Defender, or a designee, is hereby appointed to represent Defendant
with regard to his FSA Motions.

IT IS FURTHER ORDERED that Defendant, through counsel, shall file a supplemental
brief within twenty-one (21) days of the date of this Order addressing: (1) whether Defendant is
eligible for a sentence reduction under the FSA; and (2) if so, the impact of the FSA on Defendant’s
original sentence and the extent of any reduction authorized by the FSA. The Government shall file
a supplemental response within twenty-one (21) days after Defendant files his supplemental brief.

Dated: May 10, 2019 /s/ Gordon J. Quist
GORDON J. QUIST

UNITED STATES DISTRICT JUDGE

  

 
FPD Counsel Assignment in 1:06-cr-00194-GJQ USA v. Hunnicu...

lofi

Subject: FPD Counsel Assignment in 1:06-cr-00194-GJQ USA v. Hunnicutt #12945-040
From: ecfhelp@miwd.uscourts.gov

Date: 5/10/2019, 3:07 PM

To: ecfadmin@miwd.uscourts.gov

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT
RESPOND to this e-mail because the mail box is unattended.

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by
the filer. PACER access fees apply to all other users. To avoid later charges, download a copy of
each document during this first viewing. However, if the referenced document is a transcript,
the free copy and 30 page limit do not apply.

United States District Court
Western District of Michigan

Notice of Electronic Filing

The following transaction was entered on 5/10/2019 at 3:07 PM and filed on 5/10/2019

Case Name: USA v. Hunnicutt #12945-040
Case Number: 1:06-cr-00194-GJQ
Filer:

Document Number: No document attached
Docket Text:
Federal Public Defender recommends that Anna Rebekah Rapa be appointed to

represent defendant Craig Edward Hunnicutt #12945-040, Jr (Federal Public
Defender, )

Notice has been electronically mailed to the following attorneys, and no further service upon
them is required if the document has been electronically filed:

Anna Rebekah Rapa annarapa@gmail.com, annarapa@hotmail.com

Nils R. Kessler _ Nils.Kessler@usdoj.gov, CaseView.ECF @usdoj.gov, kristina.zelasko@usdoj.gov,
usamiw.ecfcriminal@usdoj.gov

Sharon A. Turek sharon_turek@fd.org, ECFPSI_MIW@fd.org, julia_weir@fd.org

1:06-cr-00194-GJQ-1 Notice has NOT been electronically mailed to:

8/25/2020, 12:03 PM

 
